OIG Investigative Reports, Former Vocational Rehabilitation Provider Pleads Guilty To Fraudulent Claims Against The Government
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE:
U.S. Department of Justice
Donald J. DeGabrielle, Jr.
United States Attorney
Southern District of Texas
August 13, 2008
P.O. Box 61129
Houston, TX 77208 CONTACT:
Telephone 713-567-9000
or
Public Inquiry Line - 713-567-9535
Fax 713-718-3300
Website: http://www.usdoj.gov/usao/txs
Former Vocational Rehabilitation Provider Pleads Guilty to Fraudulent Claims Against the Government
(HOUSTON, Texas) — Former vocational rehabilitation provider James Earl Dunn
Jr., 38, of Pearland, Texas, has pleaded guilty to one count of submitting fraudulent
claims against the government, United States Attorney Don DeGabrielle announced
today. Dunn was the owner and operator of Rehab Specialist Inc., which is no
longer in operation.
Dunn received contracts from the Texas Department of Assistive and Rehabilitative
Services (DARS), formerly known as the Texas Rehabilitation Commission, from
funds awarded by the U.S. Department of Education to provide vocational rehabilitation
training to individuals with mental and physical disabilities. He was indicted
in May 2007 accused of submitting fraudulent claims against the government by
fraudulently by claiming he was providing employment training and coaching to
clients with disabilities when the clients were not receiving such training.
Dunn allegedly obtained federal vocational rehabilitation funds in excess of
$300,000, through DARS between 2002-2004.
Dunn admitted his guilt at a hearing before United States District Judge Lee
H. Rosenthal on Aug. 12, 2008. He faces a maximum penalty of five years imprisonment
and a fine of up to $250,000 at his sentencing scheduled for Dec. 9, 2008. Dunn
remains free on bond pending his sentencing hearing.
This investigation leading to Dunn's indictment was conducted by special agents
with the U.S. Department of Education - Office of Inspector General and the
DARS Investigations Unit. This case is being prosecuted by Assistant United
States Attorney Quincy L. Ollison.
Top
Printable view
Share this page
Last Modified: 08/22/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov